<html>
<title> - FUTURE OF THE HOMELAND SECURITY MISSIONS OF THE COAST GUARD</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






      FUTURE OF THE HOMELAND SECURITY MISSIONS OF THE COAST GUARD

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER
                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 4, 2014

                               __________

                           Serial No. 113-49

                               __________

       Printed for the use of the Committee on Homeland Security



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-023 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001










                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                        Vacancy, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Tulsi Gabbard, Hawaii
Vacancy                              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
            Paul L. Anstine, II, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security...................................     3

                                Witness

Admiral Robert J. Papp, Commandant, U.S. Coast Guard, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     8

                                Appendix

Questions From Honorable Steven M. Palazzo for Robert J. Papp....    27

 
      FUTURE OF THE HOMELAND SECURITY MISSIONS OF THE COAST GUARD

                              ----------                              


                       Tuesday, February 4, 2014

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Palazzo, Jackson Lee, 
Sanchez, O'Rourke, and Gabbard.
    Mrs. Miller. Good morning. The Committee on Homeland 
Security, Subcommittee on Border and Maritime Security will 
come to order.
    The subcommittee is meeting today to examine the future of 
the Coast Guard's Homeland Security missions, and our witness 
today is Admiral Robert Papp, who is the Commandant of the 
United States Coast Guard. We certainly welcome him.
    I am going to recognize myself for an opening statement and 
then I will give a more formal introduction of Admiral Papp.
    Being a life-long recreational boater, I have certainly a 
deep affinity for the Coast Guard and for the incredible work 
that they do each and every day, whether it is out on the 
oceans or in the Great Lakes, whether it is routine boating 
safety missions, search and rescue, or certainly keeping vital 
shipping lanes clear of ice in the winter and then helping 
commerce to flow through all of our channels. I often say that 
if it is cold and wet and impossible, you should send in the 
Coast Guard. So we are very appreciative, certainly, of the 
work that the Coast Guard does in service to our great Nation.
    Since 9/11, the Coast Guard has taken an ever-increasing 
role in the protection of our Nation. We have given the Coast 
Guard additional responsibilities. We have tasked them to 
specifically focus their limited resources on port and maritime 
security. This often calls for some difficult choices, and in 
this time of very restrained budgets, we have to prioritize the 
Coast Guard's core missions, because the Coast Guard cannot be 
everywhere at once.
    When the Commandant was before this subcommittee in the 
last Congress, he stressed the importance of recapitalizing our 
aging cutter fleet, specifically how important the acquisition 
of the National Security Cutter was and is. Congress responded, 
we worked together, and it is on track now to fully fund all 
eight of the required cutters, which I think certainly is vital 
to the homeland security missions of the Coast Guard.
    Again, the Commandant was a very vocal advocate for that, 
and I am glad that Congress listened to the men and women of 
the Coast Guard about that issue. However, as we all know, 
recapitalization of the fleet is long-term, it is a costly 
process, and in a time again of budget constraints, we have to 
balance the cost to acquire these advanced cutters against 
long-term capability needs.
    I certainly support the Coast Guard's plan to develop the 
Offshore Patrol Cutter, or the OPC as it is called, because our 
older cutters are costing us far too much in terms of less 
mission readiness, lost operational hours, and higher 
maintenance costs. Just consider for a moment that major Coast 
Guard law enforcement cutters have an average age of more than 
40 years, while at the same time our naval ships have an 
average age of only 14. Quite a discrepancy there.
    We in the Congress need to ensure that the Coast Guard, 
again, has the proper assets to safely and effectively carry 
out its operations. This committee is especially interested in 
hearing the Commandant's thoughts on the trade-offs required to 
ensure that the Coast Guard has the capabilities required to 
secure the maritime borders, to combat terrorism, to interdict 
drugs, and to perform its other statutory missions.
    During the 113th Congress, this subcommittee held a series 
of hearings on what a secure border looks like. As we increase 
our efforts along the border, other threats have emerged, such 
as the growing threat from panga boats off the coast of 
California.
    No border security efforts can be complete without a 
serious examination of our maritime security, and how we 
measure success there as well, and it will take an ``all of the 
Department of Homeland Security'' approach to securing our 
borders--Northern, Southern, and our maritime borders.
    Thankfully, the Coast Guard is adept at partnering with and 
leveraging other Department of Homeland Security components in 
the critical maritime domain. Centers like the Operational 
Integration Center in Detroit continue to be a good model for 
cooperation amongst the various Federal partners, State and 
local stakeholders, in addition to our Canadian friends. We 
certainly welcome and appreciate the contributions made by the 
Coast Guard to this collaboration as well as their leadership 
role in the Regional Coordinating Mechanism, or RCM, as it is 
called.
    Sharing information helps secure the border, minimizes the 
duplication of efforts between agencies with overlapping 
jurisdictions, and keeps the maritime domain open for commerce 
and recreational boaters. One of the more interesting and 
valuable programs that leverages our partnerships is the 
Shiprider program, which we have talked about on this committee 
many times. We have very closely followed the progress of this 
integrated law enforcement program since it was first piloted 
in 2006. We were very pleased to see that the permanent 
authorization of the Shiprider program, that I actually 
authored and this committee passed, was included in the 2012 
Coast Guard Authorization Act.
    As you know, this committee has a long history of strongly 
supporting the specialized maritime security teams that deploy 
to provide security and protection in a maritime environment 
and specialize in counterterrorism tactics and is designed as a 
first responder to marine terrorist situations.
    We are very interested on getting the Commandant's 
perspective on the future of these programs and what advice he 
might give to the new Commandant when it comes to Homeland 
Security missions of the Coast Guard.
    So, again, I want to thank the Commandant for appearing 
before us today. We certainly appreciate your presence here, 
sir. We look forward to hearing your thoughts on how the 
Congress can work with the Coast Guard to better assist all of 
the challenges that you have to secure our Nation's ports and 
maritime borders.
    At this time the Chairwoman now recognizes the Ranking 
Minority Member of the subcommittee, the gentlelady from Texas, 
Ms. Jackson Lee, for her statement.
    Ms. Jackson Lee. Let me thank the Chairwoman and thank our 
witness, Commandant Papp, for his leadership and the leadership 
that has been given by the United States Coast Guard.
    I am prone to the work that the Coast Guard has done over 
the years, and as a beginning and early member of the Homeland 
Security Committee, I felt that the Coast Guard was a strategic 
element of the war on terrorism and the prevention of any 
further attacks on the homeland, and I continue to emphasize 
both the civilian and military role that the Coast Guard plays, 
plays in commerce, but it also plays in the security of the 
Nation's citizens. For that, I am eternally grateful and agree 
that the funding necessary for the Coast Guard to carry out its 
responsibilities should be an important responsibility.
    I, too, am glad of the funding of the offshore patrol 
cutters and realize that even though they may have a life of 40 
years-plus, it is not the best to continue to utilize equipment 
that does not have the state-of-the-art technology, although 
the Coast Guard has been enormously effective in its efforts 
with the equipment that it has, and I believe that we should 
continue to seek full funding for the resources of the 
personnel of the Coast Guard and of the equipment.
    Admiral, let me make note of Polar Star, I believe one of 
our major assets of the Coast Guard, and know that if you had 
reached the Australian research ship, as you had been requested 
to do, and you were on your way to do so before mother nature 
took hold, all would have been well. So let me thank those who 
manned that and thank the Coast Guard for being ever-ready in 
its service.
    As Ranking Member of the Subcommittee on Border and 
Maritime Security and a Member of Congress representing the 
Port of Houston, again, as I indicate, I am well aware of the 
value of the Coast Guard to our communities and Nation. In my 
own backyard, the Coast Guard works to secure the Port of 
Houston, among other ports, which is imperative as it is the 
Nation's largest petrochemical complex, supplying over 40 
percent of our petrochemical manufacturing capacity.
    The Coast Guard also works to facilitate commerce, which is 
vital to our economy, as the Port of Houston handles nearly 230 
million tons of cargo annually, making it the No. 1 U.S. port 
in foreign water-borne tonnage and generating over 650,000 jobs 
at its terminals. Without the Coast Guard, this would simply 
not be possible. Of course, these examples are just one small 
part of the service by U.S. Coast Guard men and women across 11 
statutory missions both here at home and around the world.
    Given this committee's jurisdiction, the focus of today's 
hearing is the Coast Guard's Homeland Security missions, 
including ports, waterways and coastal security, drug 
interdiction, migrant interdiction, defense readiness, and law 
enforcement. I am pleased to have the Commandant of the Coast 
Guard, Admiral Robert Papp, here to discuss the future of these 
Homeland Security missions.
    Personally, Commandant Papp, I want to thank you for 40 
years-plus probably of service and your true commitment to 
America's goals, visions, security, and your service to your 
Nation. I know that the men and women of the Coast Guard have 
benefited from your long years of service, and it is my 
privilege to simply say thank you.
    Indeed, this is a particularly appropriate time for him to 
be before the committee as he completes his 4 years of service 
as Commandant in May. It is also a critical time for the Coast 
Guard, as budget cuts and recapitalization challenges force the 
Coast Guard to make some tough choices. The Coast Guard has 
been forced to cut back its hours on water and in the air, 
contributing to a reduction in mission performance. This is a 
troubling trend that must be reversed. The Coast Guard already 
provides the American taxpayers with an excellent return on our 
investment, and there is only so long we can ask them to 
continue to do more with less.
    Frankly, I believe that we should have a goal, as the 
Chairwoman has worked unceasingly on issues dealing with 
assets, that we should have a commitment of full funding of the 
Coast Guard. I am reminded of my own visuals watching the Coast 
Guard race up and down the Pacific and in the Caribbean area to 
track and find drug dealers who have taken to the waterways, 
and taken to the waterways in very large numbers. Other means 
of attacks on the United States are able to approach us through 
the waterways, and the Coast Guard is one of our first lines of 
defense.
    So I am here to hear from the Commandant and to thank him 
as well, and to commit to working to prepare the Coast Guard 
for its 21st Century multi-missions that it has. Again, I don't 
think I miss a time when a Coast Guard is before me to say 
again, among all the things you have done, and you have done 
many things, I am very much reminded of the work you did in 
Hurricane Katrina in saving the lives of those stranded in the 
terrible aftermath of the hurricane and the breaking of the dam 
that faced the citizens of New Orleans, many of whom now live 
in Houston, Texas.
    Madam Chairwoman, I do want to acknowledge present 
Congressman Beto O'Rourke and Captain Gabbard, Congresswoman 
from Hawaii. Commandant, she is with the Hawaiian Army National 
Guard, Military Police, and she did two deployments in Iraq, 
but I take note of her because she was on her 2 weeks of 
military police training in Fort Leonard Wood, Missouri. So we 
missed her for a while at this committee, and we welcome her 
back, having done her requirements to serve the Nation in more 
ways than here in the United States Congress. So let me thank 
all of you.
    With that, Madam Chairwoman, I yield back.
    Mrs. Miller. I thank the gentlelady very much for her 
comments, and I certainly join with her in recognizing our 
colleague from Hawaii to be here and for her service to the 
country, as you say, in many, many ways. We appreciate that.
    I also want to join in and again thank the Commandant for 
his many, many years of service to the Coast Guard and to our 
Nation. I know your term as Commandant is coming to an end; is 
it the end of May or beginning of June?
    Admiral Papp. May 30.
    Mrs. Miller. Yeah. May 30. We certainly are going to miss 
him on this committee and miss your advocacy for the men and 
women of the Coast Guard. You certainly have done the service, 
your uniform, and the country very, very proud.
    Admiral Robert Papp began his service as Commandant of the 
United States Coast Guard in May 2010. The Admiral has served 
in numerous capacities within the Coast Guard, including the 
commander of the Coast Guard Atlantic area as well as the 
commander of the Ninth Coast Guard District, a district that 
includes the Coast Guard missions on the Great Lakes and the 
Northern Borders. His full statement will appear in the record.
    I would also remind the other Members of the committee that 
if they have any opening statements, we can include those in 
the record as well.
    At this time the Chairwoman now recognizes the Commandant 
for 5 minutes; actually for as long as you may consume. Please 
take your time.

  STATEMENT OF ADMIRAL ROBERT J. PAPP, COMMANDANT, U.S. COAST 
          GUARD, U.S. DEPARTMENT OF HOMELAND SECURITY

    Admiral Papp. Thank you, Madam Chairwoman.
    Thank you also, Ranking Member Jackson Lee, and to the 
distinguished Members of the panel. Thank you for having me 
here today.
    It has just been an honor to serve in this service that I 
love so much for nearly 4 decades, but it is an even greater 
honor to come up here each time to talk about the men and women 
of the Coast Guard and to try to provide for the resources that 
they need to get their jobs done, and I am particularly mindful 
of those men and women today.
    I have attended three memorial services this past week as 
the keynote speaker. Each one of them drove home to me once 
again the dangerous work that we do and the selfless dedication 
of the people who do it.
    Now, the first two were in Florida and they go back a ways, 
but we continue to remember our shipmates of the Coast Guard 
Cutter Blackthorn, which sank 34 years ago in Tampa Bay with 
the loss of 23 Coast Guardsmen. The third service was out in 
California, and it was a memorial service for Boatswain's Mate 
Third Class, Travis Obendorf of the National Security Cutter 
Waesche. He was mortally wounded during a rescue operation in 
the Bering Sea, and then just around Christmastime, he 
succumbed to his injuries.
    Both these events were fresh reminders to me that 
downstream from every decision, every hearing, every piece of 
policy that we produce here in Washington, it is young men and 
women who carry those things out, often when they are cold, 
wet, and tired, and who stand the watch to keep our homeland 
safe.
    So I am here today to discuss the Coast Guard's homeland 
security missions, but before I begin, I would like to thank 
the Members of the subcommittee for their support in passing 
the Consolidated Appropriations Act of 2014. This act will 
really help to relieve the erosive efforts of sequestration on 
our service. It will also restore front-line operations and 
badly-needed training hours for my people and ease many of the 
personnel management restrictions that we had to face over the 
past year.
    I would also like to take this opportunity to thank our new 
Secretary. Secretary Jeh Johnson has been a tremendously 
enthusiastic supporter of the Coast Guard in his short time in 
the Department. I deeply appreciate his concern for our people 
and also his strong advocacy for our service's critical 
recapitalization needs.
    America is a maritime Nation, we all understand that, and 
we rely upon the safe, secure, and free flow of goods across 
the seas into our ports and waterways. I have always firmly 
believed as a Coast Guardsman that one measure of our Nation's 
greatness is its ability to provide safe and secure approaches 
to our ports. This system of uninterrupted trade is the 
lifeblood of our economy. For more than 2 centuries, the Coast 
Guard has safeguarded America's maritime interests and kept 
those approaches secure.
    As the Nation's maritime first responder, we protect those 
on the sea, we protect the Nation from threats delivered by the 
sea, and we also protect the sea itself. Every day the Coast 
Guard acts to both prevent and respond to an array of threats 
that if left unchecked would impede trade, weaken our economy, 
and create instability. These threats disrupt regional and 
global security, the economies of our partner nations, and 
access to both resources and international trade. All of these 
are vital elements of our National prosperity, which of course 
plays into our National security.
    In previous testimony, I have used the term ``layered 
security'' to describe the way the Coast Guard counters 
maritime threats facing the United States. This layered 
security strategy first begins in foreign ports, then it spans 
the high seas, because the best place to counter a threat is 
before it reaches our borders.
    It then encompasses our exclusive economic zone in 
territorial seas, which is the largest exclusive economic zone 
in the world at 4.5 million square miles, the largest of any 
country, and then it continues into our ports and our inland 
waters.
    Now, starting overseas, our international port security 
program assesses foreign ports on security and anti-terrorism 
measures. Since the inception of the program in 2004, Coast 
Guard personnel have visited more than 150 countries and 1,300 
port facilities. Vessels sailing from ports where effective 
counterterrorism measures are not in place force conditions of 
entry prior to entering our ports or we subject them to 
additional security measures and inspections before they arrive 
in our ports.
    Our Nation faces a range of risks and vulnerabilities that 
continue to grow and evolve. The global economy is spurring 
investment in even larger vessels to ship goods across the 
seas, and the Arctic is seeing exponential increases in vessel 
traffic and human activity and we continue to see persistent 
efforts by terrorists and transnational criminal networks to 
exploit the maritime environment.
    It is Coast Guard's responsibility to detect and interdict 
contraband and illegal drug traffic, enforce U.S. immigration 
laws, protect our valuable natural resources and counter 
threats to U.S. maritime and economic security worldwide, and 
it is often the most effective to do this as far as possible 
from our shores.
    A capable offshore fleet of cutters is critical to the 
layered approach, and this is the same area that has caused me 
concern, as I have mentioned in the past. I am deeply grateful 
that now we have 8 National Security Cutters in sight, but now 
we need to move on to our next large project, which is 
replacing our medium-endurance cutters which, as mentioned, 
they are averaging 46 years old. In fact, the oldest one turns 
50 this year.
    I sailed on one of those cutters, the Coast Guard Cutter 
Valiant, when I was a brand-new cadet. The ship was only 3 
years old at the time, and Valiant has been sailing the better 
part--by the time I was commissioned in the service, it had 
been sailing for about a decade. Solely due to the 
determination of our sailors, our cuttermen, our naval 
engineers and our modernized mission support system, Valiant 
will still be sailing when I leave the service after nearly 44 
years.
    So as good as our people are and our support systems are, 
it is no longer possible to sustain these vessels. In fact, 3 
of these same cutters, sister ships, needed emergency dry docks 
for repairs to their failing hulls this year.
    Now, I am fully aware of the fiscal constraints we face as 
a Nation, but we must continue to support the development of 
the Offshore Patrol Cutter. I am committed to working with the 
Department, the administration, and the Congress to ensure we 
can achieve the Coast Guard's critical recapitalization needs 
in an affordable manner.
    Closer to home, we work with the interagency, the 
intergovernmental and commercial partners to patrol maritime 
approaches, escort vessels, monitor critical infrastructure, 
and inspect port facilities. These partnerships continue to 
enhance our capability and effectiveness along our coasts and 
waterways.
    To maximize the effectiveness of our efforts, we are a 
member of the National intelligence community. We screen ships, 
crews, and passengers bound for the States before they reach 
our ports. Using our maritime intelligence fusion centers and 
intelligence coordination center, we work hand-in-hand with 
Customs and Border Protection to analyze arriving vessels and 
highlight potential threats. Last year we collectively screened 
more than 126,000 vessels and over 30 million people seeking to 
enter the United States. These efforts enhance maritime domain 
awareness, a key element that supports the Department of 
Homeland Security layered security strategy.
    As the Nation's maritime governance force, the Coast Guard 
possesses unique authorities, capabilities, and partnerships. 
Coupled with capable ships, aircraft, and boats operated by 
highly proficient personnel, we maximize these authorities and 
capabilities to execute layered security throughout the entire 
maritime domain, and our many partnerships facilitate the 
integration of Federal resources with State and local 
capabilities.
    We are a ready force on a continuous watch with a proven 
ability to surge assets and our people to crisis events when 
and where they occur.
    So I thank you for this opportunity to testify today and I 
look forward to answering your questions.
    [The prepared statement of Admiral Papp follows:]
                  Prepared Statement of Robert J. Papp
                            February 4, 2014
                              introduction
    Good morning, Chairwoman Miller, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. It is a pleasure to be here 
today to discuss the Coast Guard's homeland security missions.
    For more than 2 centuries, the U.S. Coast Guard has safeguarded the 
Nation's maritime interests on our rivers and ports, in coastal 
regions, on the high seas, and around the world. The Coast Guard is at 
all times an armed service, a Federal law enforcement agency, a 
humanitarian service, and a member of the intelligence community 
charged with significant safety, security, and stewardship 
responsibilities in the maritime domain. Every day the Coast Guard 
conducts search and rescue, escorts vessels carrying dangerous cargoes, 
interdicts drug and migrant smugglers, patrols our ports and waterways, 
enforces fisheries laws, responds to oil and hazardous material spills, 
maintains aids to navigation, screens commercial ships and crews 
entering U.S. ports, inspects U.S. flagged vessels, examines cargo 
containers, investigates marine accidents, trains international 
partners, and supports Overseas Contingency Operations. This diverse 
mission set and authorities are vital to the safety and security of our 
Nation's maritime transportation system and essential to our Nation's 
economic growth. With 223 years of experience as the Nation's maritime 
first responder, the Coast Guard provides tremendous value and service 
to the public.
               a layered system to counter maritime risk
    As a maritime nation, the United States relies on the safe, secure, 
and free flow of legitimate global commerce on the high seas, 
throughout the Exclusive Economic Zone (EEZ)--the largest of any 
country in the world--and inside America's ports and waterways.
    With more than 4.5 million square miles of territorial seas and 
EEZ, 95,000 miles of coastline, 12,000 miles of navigable waters, over 
350 ports, and significant international maritime border interests with 
Canada and Mexico, the U.S. maritime domain is broad in its scope and 
diversity, requiring an integrated and layered system for security.
    The strategy of the Department of Homeland Security (DHS) and the 
Coast Guard is to increase maritime security through a layered system 
that reaches beyond the country's physical borders. This system begins 
in foreign ports, spans the high seas, encompasses the U.S. EEZ and 
territorial seas, and continues into our ports. The Coast Guard's mix 
of cutters, aircraft, boats, and deployable specialized forces (DSF), 
as well as international and domestic partnerships, allow the Coast 
Guard to leverage its unique maritime security authorities and 
competencies to reduce risk and improve security throughout the 
maritime domain.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Maritime Domain Awareness (MDA) is one of the most important 
aspects of the Coast Guard's layered security system and it supports 
all levels (strategic, operational, and tactical) of decision making. 
Effective MDA requires efficient information sharing and coordination 
among numerous participants at international, Federal, regional, State, 
local, territorial, and Tribal levels of government, as well as with 
maritime industry and private-sector partners. MDA is more than an 
awareness of ships en route to a particular port; it also entails 
knowledge of:
  <bullet> People.--Crew, passengers, owners, and operators;
  <bullet> Cargo.--All elements of the global supply chain;
  <bullet> Infrastructure.--Vital elements of the Nation's maritime 
        infrastructure, including facilities, services, and systems;
  <bullet> Environment.--Weather, environmentally-sensitive areas, and 
        living marine resources;
  <bullet> Trends.--Shipping routes, migration routes, and seasonal 
        changes; and
  <bullet> Threats.--Potential or indication of illicit or hostile 
        activity in the maritime environment.
                       international cooperation
    Layered security begins overseas. The Coast Guard fosters strategic 
relationships with partner nations to detect, deter, and counter 
threats as early and as far from U.S. shores as possible. To achieve 
that end, the Coast Guard conducts foreign port assessments and 
leverages the International Maritime Organization's (IMO) International 
Ship and Port Facility Security (ISPS) Code to assess effectiveness of 
security and antiterrorism measures in foreign ports. The ISPS Code 
provides an international regime to ensure ship and port facilities 
take appropriate preventative measures consistent with our domestic 
regime under the Maritime Transportation Security Act. Through the 
International Port Security Program, the Coast Guard performs overseas 
port assessments to determine the effectiveness of security and 
antiterrorism measures exhibited by foreign trading partners. Since the 
inception of the International Port Security Program in 2004, Coast 
Guard personnel have visited more than 150 countries and approximately 
1,300 port facilities. These countries generally receive biennial 
assessments to verify compliance with the ISPS Code and U.S. maritime 
security regulations. Vessels arriving in non-ISPS Code-compliant 
countries are required to take additional security precautions while in 
those ports and may subject to boarding and inspection by the Coast 
Guard before being granted permission to enter U.S. ports. In specific 
cases, these vessels may be refused entry. Furthermore, the 
International Port Security Program conducts targeted capacity building 
efforts to help countries that fail to meet ISPS Code achieve 
compliance, and to prevent countries with marginal compliance from 
falling into non-compliance.
                security and governance on the high seas
    America's diplomatic strength and economic security depend upon the 
free flow of global commerce and a proper system of governance in the 
maritime domain. Coast Guard responsibilities on the high seas include 
detecting and interdicting contraband and illegal drug traffic, 
enforcing U.S. immigration laws at sea, and countering threats to 
maritime and economic security worldwide. A capable fleet of Maritime 
Patrol Forces (comprised of Coast Guard cutters and aircraft, and their 
crews) and DSF are critical to the layered security approach.
    Within the EEZ, the Coast Guard enforces our Nation's living marine 
resources (LMR) and marine-protected species laws and regulations to 
ensure the integrity of the EEZ, and to ensure the continued viability 
of critical fish stocks. This enforcement involves the deterrence, 
detection, and interdiction of illegal incursions into the EEZ by 
foreign fishing vessels. As these incursions represent a threat to our 
Nation's renewable natural resources and sovereignty, the protection of 
the United States EEZ contributes to another fundamental layer of the 
Coast Guard maritime security system.
    Coast Guard at-sea presence ensures compliance with international 
agreements for the management of LMR through enforcement of 
conservation and management measures created by Regional Fishery 
Management Organizations (RFMOs). Of the 4.5 million square miles that 
comprise the EEZ, more than 75% is outside the contiguous zone of the 
United States.
    The Coast Guard maintains a strong at-sea presence to disrupt the 
maritime flow of illegal drugs and other contraband through the 
maritime drug transit zone. This presence supports National and 
international strategies to deter and disrupt the market for illegal 
drugs, dismantle Transnational Organized Crime (TOC) networks, and 
prevent transnational threats from reaching the United States. Through 
45 established bilateral agreements, the Coast Guard facilitates 
coordination of operations and the forward deployment of boats, 
cutters, aircraft, and personnel to deter and counter threats as close 
to their origin as possible. By extending our law enforcement 
capabilities into the territorial seas of other countries, the Coast 
Guard is at the forefront in assisting partner nations' efforts to 
reduce the production and transportation of illicit drugs within their 
sovereign boundaries.
    The Coast Guard also relies on joint, interagency, and 
international partnerships to conduct drug interdiction. More 
specifically, the Coast Guard leverages the availability of U.S. Navy 
and Allied Nation vessels to enhance presence and expand interdiction 
opportunities by embarking specially-trained Law Enforcement 
Detachments (LEDET). Coast Guard LEDETs employ their distinctive law 
enforcement authorities to stop threats and to gather critical 
information regarding vessels, crew, passengers, and cargo destined for 
the United States. Over the last 5 years, Coast Guard Maritime Patrol 
Forces and LEDETs have removed approximately 500 metric tons of 
cocaine, with a wholesale value of nearly $17 billion.
    The Coast Guard enforces U.S. immigration laws and international 
conventions against human smuggling through at-sea interdiction and 
rapid repatriation of undocumented migrants attempting to reach the 
United States unlawfully. The Coast Guard maintains a constant law 
enforcement presence at-sea to deter undocumented migrants and 
transnational human smugglers from using maritime routes to enter the 
United States, to detect and interdict undocumented migrants and 
smugglers far from the U.S. border, and to expand Coast Guard 
participation in multi-agency and international border security 
initiatives. The Coast Guard accomplishes this mission in conjunction 
with other Federal, State, and local agencies, including U.S. 
Citizenship and Immigration Services (USCIS), Immigration and Customs 
Enforcement (ICE), Customs and Border Protection (CBP), and the 
Department of State. While the Coast Guard leads the interdiction 
mission on the high seas, partnerships with CBP and ICE are critical 
for successful shore-side interdiction operations.
    The United States is also an Arctic nation, with significant 
interests in the future of the region. As oil and natural gas 
exploration in the Arctic attracts significant interest from the 
international community, the importance of the Arctic is more critical 
than ever. The Coast Guard, as the maritime component of the U.S. 
Department of Homeland Security (DHS), has specific statutory 
responsibilities in U.S. Arctic waters. U.S. Coast Guard continues to 
assess its responsibilities in support of the emerging economic, 
environmental, and political issues, and will help advance our 
interests in that region.
    In the rapidly-evolving geopolitical landscape, the United States 
must maintain an offshore maritime presence to promote Maritime 
Governance and to protect America's National and homeland security 
interests. Moreover, with renewed National focus on the Asia Pacific, 
emerging international interest in the Arctic, and continuing 
obligations in the Western Hemisphere, a versatile U.S. Coast Guard 
offshore capability is an important component of the Coast Guard's 
layered security strategy.
                       security in coastal waters
    To address potential threats approaching our shores, Coast Guard 
ships, boats, aircraft, and DSF provide the ability to monitor, track, 
interdict, and board vessels. In addition, interagency partnerships 
have an increasing role in the layered security approach. Coast Guard 
Area Commanders receive support from the National Vessel Movement 
Center and Maritime Intelligence Fusion Centers (MIFCs), which screen 
commercial vessels operating within their areas of responsibility. The 
MIFCs focus on screening characteristics associated with the vessels 
itself, such as ownership, ownership associations, cargo, and previous 
activity. Coast Guard vessel screening results are disseminated to the 
appropriate DHS Maritime Interagency Operations Center (IOC), Sector 
Command Center, local intelligence staffs, CBP, and other interagency 
partners to evaluate and take action on any potential risks. 
Additionally, vessel screening develops a manageable set of targets for 
potential Coast Guard boardings and/or inspections by Maritime Patrol 
Forces, Shore-Based Forces, or DSF. Complementary screening efforts 
occur at the National and tactical levels. At the National level, the 
Intelligence Coordination Center's Coastwatch Branch, which is co-
located with CBP at the National Targeting Center, screens crew and 
passenger information. Through our partnership with CBP, we have 
expanded access to counterterrorism, law enforcement, and immigration 
databases, and this integration has led to greater information sharing 
and more effective security operations. In 2013, Coastwatch screened 
approximately 126,000 Advance Notice of Arrivals (ANOAs) and 30.7 
million crew and passenger records of vessels before they entered U.S. 
Ports.
          security in u.s. ports and interagency partnerships
    In the Nation's 361 maritime ports, the Coast Guard, along with our 
Federal, State, local, and Tribal partners, working in concert with 
port stakeholders, patrol our waters and critical infrastructure, 
conduct vessel escorts, and inspect vessels and facilities. The Coast 
Guard utilizes data from its Maritime Security Risk Analysis Model 
(MSRAM) for prioritizing security escorts and patrols. MSRAM is a 
terrorism risk analysis tool and methodology used at all Coast Guard 
Sectors to perform detailed risk analysis of the Marine Transportation 
System (MTS), maritime Critical Infrastructure, and other potential 
targets, such as large congregations of people in the maritime domain. 
MSRAM offers an analytical interface capable of generating tailored 
results to support risk-based decision making at the strategic, 
operational, and tactical levels.
    Coast Guard Captains of the Port (COTPs), in their role as Federal 
Maritime Security Coordinator (FMSC), significantly enhance domestic 
maritime transportation security and preparedness through long-standing 
cooperation and coordination with their respective Area Maritime 
Security Committees.
    As the FMSC, the Coast Guard COTP works in partnership with 
Government and private-sector AMSC members to manage the Nation's 43 
Area Maritime Security (AMS) Plans. These plans provide Government and 
private industry port partners with a coordination and communication 
framework to prevent, protect against, respond to, and recover from a 
Transportation Security Incident or the threat thereof. The COTPs and 
their respective AMSCs validate their AMS Plan and ensure plan 
familiarity by conducting annual exercises, as required by the Maritime 
Transportation Security Act (MTSA). In and around our ports, the Coast 
Guard also maintains robust multi-mission maritime first responder 
assets capable of saving lives, protecting property and the 
environment, and responding to disasters within the maritime domain. 
The Coast Guard leverages its broad COTP authorities and its role as 
FMSC and Federal On-Scene Coordinator to coordinate response to 
disasters such as BP Deepwater Horizon and Hurricane Sandy. The Coast 
Guard is also working with other components of DHS and with the 
maritime sector to determine how the critical infrastructure security 
and resilience guidance of Executive Order 13636 and Presidential 
Policy Directive 21 should be leveraged by the community.
    Coast Guard Maritime Security and Response Operations (MSRO) apply 
our authorities, competencies, capabilities, capacities, and 
partnerships to deny the use and exploitation of the maritime domain by 
criminal or hostile actors. The Coast Guard coordinates the activities 
of many Federal, regional, State, Tribal, territorial, and local 
Government agencies as well as the maritime industry to prevent, 
disrupt, protect, respond to, and recover from terror-related risks in 
the maritime domain. In 2013, Coast Guard forces conducted:
  <bullet> More than 670 security boardings of high-interest vessels;
  <bullet> Close to 8,500 security boardings of small vessels;
  <bullet> More than 2,000 escorts of high-capacity passenger vessels, 
        e.g., ferries and cruise ships;
  <bullet> More than 1,200 escorts of high-value U.S. naval vessels 
        transiting U.S. waterways; and
  <bullet> More than 690 escorts of vessels carrying certain dangerous 
        cargoes.
    Maritime Security Response Operations enhance the resilience of 
maritime CIKR and the MTS. As such, MSRO plays a critical role in the 
Coast Guard's Ports, Waterways, and Coastal Security mission by 
deterring adversaries, maximizing the probability of disrupting their 
pre-operational planning, and providing a response framework to prevent 
and respond to maritime transportation security incidents.
                        maritime threat response
    When the Coast Guard is alerted to a specific maritime security 
threat to the United States that requires a coordinated U.S. Government 
response, the Maritime Operational Threat Response (MOTR) Plan is 
activated. The MOTR Plan uses established protocols and an integrated 
network of National-level maritime command and operations centers to 
facilitate real-time Federal interagency communication, coordination, 
and decision making to ensure a timely, unified, and decisive response 
to maritime threats.
    Coast Guard DSF are highly-trained, proficient forces that provide 
field commanders with the ability to rapidly respond to emerging 
threats throughout the maritime environment, including threats of 
terrorism and weapons of mass destruction. The Coast Guard has also 
established a Chemical, Biological, Radiological, Nuclear, and 
Explosives (CBRNE) program and has worked extensively with DHS's 
Domestic Nuclear Detection Office and U.S. Special Operations Command 
to train and equip Coast Guard personnel to detect and respond to CBRNE 
threats in the maritime domain.
                               conclusion
    The Coast Guard's layered security regime is vital to the Nation's 
security. Our authorities, capabilities, competencies, and partnerships 
provide the President, Secretary of Homeland Security, Secretary of 
Defense, and other National leaders with a ready force and the 
capabilities to lead or support a range of operations to ensure safety, 
security, and stewardship in the maritime domain. Through this 
interconnected system, the Coast Guard stands ready to meet offshore, 
coastal, and port threats that have the potential to impact our 
National security and economic prosperity. From our efforts to improve 
maritime domain awareness to our international and domestic 
partnerships, and investments in cutter, boat, and aircraft 
recapitalization, the Coast Guard continues to improve the maritime 
security system to counter maritime threats and facilitate the safe 
flow of legitimate commerce.
    Thank you for the opportunity to testify today, and thank you for 
your continued support of the U.S. Coast Guard. I would be pleased to 
answer your questions.

    Mrs. Miller. Thank you very much, Admiral.
    As I mentioned to you before we began this hearing, coming 
from the Detroit sector, State of Michigan, from the Great 
Lakes region, I have to start off with a question about your 
icebreaking capabilities in the Great Lakes. We, as everybody 
knows, had a really particularly cold, frigid winter. I heard 
the other day that there is more ice cover on Lake Superior 
than has ever been recorded before. I am not sure if that is 
true, but certainly when you look at some of these aerials, 
there is as much ice as I can ever remember seeing.
    With the very bitter cold that happened, we have got--when 
that ice starts melting here in the spring, we are going to 
have some tremendous ice jams happening through some of the 
areas of the Great Lakes, through the St. Claire River, all 
these navigable waterways that make up our commerce shipping 
lanes. Obviously, maritime shipping commerce in the Great Lakes 
is a multi-billion dollar industry, so very, very critical.
    I am just wondering, in fact, I have had an opportunity in 
past years of going out to accompanying on a mission for some 
icebreaking. It is interesting to watch that happen. I think 
next week I am going to be doing the same kind of a thing up in 
the Great Lakes basin, again just on a dedicated mission that 
you were already going on to be able to sort of observe some of 
those things, but I also was looking at the list of the 
icebreaking capability that you have in the Great Lakes, and it 
is a remarkable inventory, although probably never enough.
    So I guess I would just ask you first to comment a bit on 
your current resources that you have, because, as I say, I 
think this spring, we have the potential of having probably 
some of the biggest ice jams that have ever happened there, and 
so, sir, if you could a little bit, how would you sort-of try 
to keep ahead of that with the resources that you have? Do you 
have to move the icebreaking capability around the Great Lakes 
basin a bit?
    I know you are in the process of refurbishing some of your 
icebreakers there. Then are you, as far as authorizing 
additional, what is your thought on current and then going into 
the future there?
    Admiral Papp. Madam Chairwoman, as you know, the Great 
Lakes are near and dear to my heart as a previous commander up 
there. I think even back now 4, 6, 8, almost 10 years ago when 
I went up there as the commander, one of the things I 
recognized was the 140-foot icebreakers were getting old, they 
were well past their mid-age, and we had not done any 
renovations on them.
    One of the things I was really proud of was that as the 
district commander, I put in a request to move an additional 
icebreaker up there. When I moved to be the area commander, I 
endorsed it and sent it on to Coast Guard headquarters. By the 
time I became Commandant, it got to my desk and I approved the 
extra icebreaker for the Great Lakes.
    Actually, it was good that we did that at the time. It was 
because they were becoming increasingly unreliable due to 
maintenance issues and age.
    I am very happy to report this year that we now have a 
program in place, it is called the in-service vessel 
sustainment project. In fact, Morro Bay, from Cleveland, will 
be the first ship to go into that. We estimate it is going to 
cost about $14 million per ship. The first one, Morro Bay, will 
take about 12 months as the Coast Guard yard goes through the 
process and learns lessons from it, and then we will 
subsequently put each one of the 140's through there and it 
will take each one about 9 months.
    So there will be at times when we will go from 6 down to 5 
up on the Great Lakes as we go through this process, but the 
end result is going to be more reliable icebreakers up there. 
Mackinaw, of course, is relatively new in Coast Guard terms, 
and the 2 225 buoy tender icebreakers are relatively new in 
Coast Guard terms as well.
    So I am very pleased with what we have up there. This 
winter's an anomaly. It will really test our resources, but I 
think we are well-prepared for it.
    The other thing that I would add is that the Coast Guard 
reaches out internationally. We meet annually with the Canadian 
Coast Guard. The commissioner and I hold a summit meeting, and 
part of what we do is work with our Canadian partners who have 
icebreakers as well. We have a command center that stands up 
every winter there so that we can balance both Canadian and 
U.S. needs. Oftentimes we are breaking in Canadians and 
Canadian vessels are breaking paths for us, and we get the best 
out of the resources of our two countries to keep the lakes 
open.
    Mrs. Miller. I appreciate that, Admiral. Just another issue 
there, I suppose, as we have talked about the water assets that 
you have now in regards to the air assets that you have, it is 
my understanding with the types of helicopters that you have, 
to the Great Lakes basin again, that there is very limited 
amount, if any, of helicopters that have de-icing capability.
    Admiral Papp. Right.
    Mrs. Miller. If that is the case, it just strikes you as 
very odd. Obviously it limits your ability, I would think, 
depending on the weather conditions, if you don't have de-icing 
capability. What can we do to assist with the--first of all, is 
that true, there is no de-icing, and second, what could this 
committee do to assist to make sure that people are resourced 
properly there as well?
    Admiral Papp. Right. Yes, ma'am. Our short-range recovery 
helicopters, the H-65s, both Air Station Traverse City and Air 
Station Detroit, that is their inventory, is H-65s. If you go 
back in history at Traverse City, there was a time where we had 
H-3 helicopters, which now have been replaced by the H-60, 
which is our medium-range helicopter. The bigger the 
helicopter, the more powerful it is, the more equipment you can 
put in it; and when they become smaller, you conserve by the 
amount of equipment that you put in it in order to get 
endurance. The decision was made a long time ago to put H-65s 
at both those stations. I was an advocate 10 years ago to put 
the H-60 helicopter at Traverse City.
    It is not just the de-icing. H-60s do have de-icing, and 
that would come in helpful, but it is also the range that the 
helicopters have to fly up there. I literally was on a flight 
leaving from Traverse City to go down to Duluth. We had to stop 
and refuel before we got to Duluth in an H-65. You generally 
get about 2 hours of endurance in an H-65. You get about 6 
hours of endurance in an H-60, plus greater lift and weather 
capability.
    It is not just to the western extreme in Superior. We also 
often had to rely upon the Canadians in Lake Ontario because we 
couldn't get all the way over there from our air stations.
    So the H-60 if it was in Traverse City would give us much 
more capability both in weather and in range, and I think that 
is a wise operational decision. We have put that forward a 
number of times, but in order to do that, we would--and move 
helicopters around, we would need to close down the two air 
facilities that sit on Lake Michigan and Waukegan and Muskegon 
as a tradeoff in order to do that, but I think on balance, 
having the greater capability of the H-60 far outweighs having 
those two air facs.
    Plus, we have put increased surface assets, faster boats, 
more capable boats around Lake Michigan as well, which 
mitigates any impact that those air fac closures would have.
    Mrs. Miller. I appreciate those comments, and we certainly 
will consider them here on this committee, as well as I also 
sit on the Transportation and Infrastructure Committee on the 
Coast Guard Subcommittee there, and when we do the 
authorization for the Coast Guard, I am going to keep all those 
comments in mind as well.
    Just my last question as well, one of the things that this 
subcommittee has talked about extensively in the last number of 
years is how we can really advantage the various agencies as we 
draw down and return from theater with the types of equipment 
that we have had in Iraq, Afghanistan, et cetera, and really 
try to make sure that we get the best bang for the taxpayers' 
buck on equipment that can be utilized, as I say, by other 
agencies. I do know that the Air Force gave the Coast Guard, or 
transferred, I should say, to the Coast Guard recently some C-
27s, I think 14 of them?
    Admiral Papp. Yes, ma'am.
    Mrs. Miller. Do you have those now or you are getting them 
now, and how do you anticipate you would utilize those?
    Admiral Papp. So legislation has been passed for the 
transfer, and in the fiscal year 2014 budget, we received money 
to stand up a project office to facilitate the swap. It is 
tracking nicely. I don't have the exact time line right now, 
but it will be in short order. We will be transferring all 14 
over and start converting them to Coast Guard use.
    Mrs. Miller. Okay. Good. We appreciate that.
    The Chairwoman recognizes the gentlelady from Texas.
    Ms. Jackson Lee. Let me again thank the Chairwoman, and 
thank the Commandant very much.
    Let me say that as I pose these questions, I do so for 
establishing on the record that we have to listen to your 
counsel and advice. For someone who served for 40 years and 
spent his time among his men and women in the Coast Guard and 
seeing what their needs are, I think this should be a telling 
moment in your testimony as to how we move forward. So let me 
thank you very much.
    I just want to put on the record in confirming some of the 
statements that you made in your testimony this morning that in 
its annual review of the United States Coast Guard mission 
performance, the DHS Office of Inspector General found that the 
total number of vessel and aircraft resource hours available to 
conduct Coast Guard missions declined by over 6,600 hours for 
fiscal year 2012. This decline was due to increased rates of 
asset failures, the decommission of obsolete assets before new 
assets are acquired to replace them, and reduced funding 
available to support operations.
    Now, I do agree that the work of the Coast Guard has been 
unparalleled with respect to keeping these assets going, but I 
think it is clear that we have to listen, and as the Chairwoman 
indicated, where we were able to get some new equipment, that 
we need to continue to build on the importance of restoring the 
Coast Guard's very important equipment.
    So I would like to ask a few questions along those lines, 
making note of the fact that the Coast Guard has 42,000 active-
duty, 8,200 reserve, 8,000 civilian personnel carrying out 11 
statutory missions. You in your earlier testimony indicated the 
importance of making sure the ship remains on course. So let me 
just ask one question as I lead into more specific questions.
    If you could, Commandant, just tell us, where do you think 
the Coast Guard stands today?
    Admiral Papp. Well, we have some of the best people, first 
of all. Let me start with the people. Of those 42,000, 8,200 
and 8,000 active-duty, reserve and civilians, they are some of 
the finest people I have seen in my entire career. I recognized 
a number of people at an all-hands meeting last week.
    Three relatively junior enlisted people, all three of them 
had college degrees, in fact, one of them has a master's degree 
and others are working on their master's degrees. Our retention 
is the highest it has ever been. People want to serve. We are 
having to come up with extraordinary measures to reduce our 
workforce just to keep a healthy flow going through. So I could 
not be more pleased with the young men and women, the young 
Americans that are stepping forward now to serve in the Coast 
Guard.
    Where I perhaps feel I am letting them down from time to 
time is that I have had a focus on proficiency. One of the 
things that really concerned me when I became Commandant was we 
had lost, in a 2-year period, we had lost 14 aviators due to 
accidents, and we had a number of boat accidents, in fact, one 
resulted in the death of an 8-year-old child, a civilian, and 
other associated accidents, but the rate of Coast Guard people 
dying in operational situations was just deplorable.
    So we have restored a focus on proficiency, a focus on 
mission excellence, but where we start to let those people 
down, who are intent on becoming the best they can be, is when 
we get into measures like sequestration where the money has to 
come out of our operating funds, it comes out of the flight 
hours, the boat hours, the cutter days underway, where our 
people gain that proficiency. So we are shortchanging our 
people to a certain extent, and that has me worried.
    That is why the fiscal year 2014 budget as passed is a 
relief for me, because the effects of sequestration will be 
long-term, but you get lagging indicators for that in terms of 
training and proficiency. I didn't want to go back to a time 
when we weren't focused on proficiency, so restoring these 
hours through the 2014 budget are going to help us quite a bit.
    We have recapitalized almost our entire boat fleet due to 
the administration and the Congress. Our in-shore portion of 
the Coast Guard is the best I have ever seen it. We have put 
more people at our stations, we have deployable specialized 
forces. We have practically brand-new boats, 500 boats 
throughout the Coast Guard and they are all practically brand-
new.
    But having said that, that is very well-defended, the 
coastal portion and our ports, but in football terms, that is 
doing red zone defense, that they are inside the 20-yard line 
when they get to that point in our ports.
    So the one area that is really deficient is the offshore 
portion of our fleet. Those ships that I spoke of that are--we 
now have the replacements, the National Security Cutter, for 
our high-endurance cutters that we are retiring.
    The next thing is to turn to replacing those medium-
endurance cutters that are, as I said, 46 years on average and 
some now that will be going over 50 years old this year. That 
is a very expensive proposition, but it is needed, because we 
can't continue to run the old ships. I also as Commandant need 
to look out 10, 20, 30, and 40 years from now in terms of what 
tools will the Coast Guard need then, because they have to be 
built now.
    So people-wise, we are in good shape. Our shore is in 
relatively good shape, our forces close to shore. It is the 
off-shore fleet that takes care of that largest exclusive 
economic zone in the world that we need to pay our attention 
to.
    Ms. Jackson Lee. So the NSC is fine, but we need to do work 
on the OPC and the fast response as well?
    Admiral Papp. Well, the NSC is working fine, the 3 that we 
have out there are great. No. 4 will be out there in October, 
the Hamilton, and we have 6--5, 6, 7, and 8 paid--I am sorry--
5, 6, and 7 paid for. We have long lead money for No. 8, and I 
am hopeful that the construction cost for 8 will be in the 2015 
budget.
    Ms. Jackson Lee. Let me give you two quick questions, and I 
will just say them together, if you don't mind.
    Admiral Papp. Sure.
    Ms. Jackson Lee. Then if you could just--I went to Mumbai 
soon after the attack in Mumbai, India, and although they were 
not fancy boats, they were attacks coming off water, and 
obviously without protection. My interest would be, how 
equipped are we to prevent terrorist attacks from offshore 
vessels, water vessels? Some of our beaches and areas are 
equally unprotected around America.
    The other is, too, I have watched the TWIC card, I am a 
TWIC card holder, I think I may be on an expiration point right 
now, so I need to get in line, but I have witnessed the 
implementation and we have discussed it and your members have 
discussed it. In May 2013, the Government Accountability Office 
released a report calling into question the current Government-
centric approach to port security credentialing, which DHS is 
responsible, for the enrollment card issuance and security 
vetting is the best option. Should this Government-centric 
permits to the TW--to TWIC card be revisited, and what do you 
think needs to be done? So two questions, on the terrorism 
ability and this issue dealing with the TWIC card.
    Thank you very much.
    Admiral Papp. Yes, ma'am. I would never sit here and tell 
you that a Mumbai-type attack could not happen in the United 
States, that would be foolish, but we are doing everything we 
can to prevent a Mumbai-type attack. Given that we have the 
broad expanse of the Pacific and the Atlantic, generally we 
will have warnings, and it would probably have to come from a 
ship that is offshore if it happened.
    Two things on that. First of all, you have to have good 
intelligence, and that is why it was so important for the Coast 
Guard to be included in the intelligence community, because we 
can leverage the Department of Defense and the other 
intelligence agency partners to keep track of potential threats 
that are coming towards our shores, learn about them in 
advance, and interdict them as far off shore as possible.
    Once again, validation, justification, why we need an off-
shore fleet so we can interdict anything coming towards our 
shores, so that we can have a persistent presence out there.
    If it does get close, we have a robust partnership, we have 
area maritime security committees that are run by Coast Guard 
captains of the port in 44 areas of our country that work with 
Federal, State, and local partners and intelligence community 
and others to keep track of what is coming into our ports, to 
screen and vet any potential threats, any ships and passengers 
that are coming into our ports, and I think that is working 
well. As I say, we have our conventional forces within the 
ports, and we are allocating them through risk-based measures 
to do random patrols to make sure that critical infrastructure 
is taken care of.
    The other aspect that I would like to point out is, that I 
am proud of is that our deployable specialized forces, the 
MSST's and the MSRT that were created after 9/11, we got the 
resources, we put them together, they were overseen by what we 
call the deployable operations group, but we didn't have 
strategy, we didn't have doctrine on how we were going to 
employ them.
    One of the things we set to work immediately on is first of 
all doing a stem-to-stern review of all our deployable 
specialized forces and how we employ them and then get the 
doctrine out there. We started with first of all a new 
publication, Coast Guard Pub 3.0, which describes how we 
conduct Coast Guard operations, but 3.1 talks about how we 
integrate deployable specialized forces and why do we need 
deployable specialized forces.
    That is in Pub 3.2: short notice maritime response, 
advanced interdiction, picking people up before they get into 
our ports, and that is what we have been training and directing 
our deployable specialized forces, the maritime safety and 
security teams, and the maritime security response team to be 
prepared to take on those challenges.
    Ms. Jackson Lee. Thank you.
    Mrs. Miller. Thank you very much, Admiral.
    Ms. Jackson Lee. Thank you.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Madam Chairwoman. Admiral Papp.
    Admiral Papp. Good morning, sir.
    Mr. Palazzo. It is a pleasure to see you today. Good 
morning. Thank you for coming to tell us about your needs and 
the needs of the men and women in the U.S. Coast Guard.
    You mentioned the Hamilton briefly. Somebody wants me to 
say how is your wife, Linda, doing and is she looking forward 
to the commissioning in the near future?
    Admiral Papp. She is. I didn't mention that my wife is the 
sponsor for the Coast Guard Cutter Hamilton. She smashed the 
champagne bottle a couple months ago on the ship and will do 
the commissioning in Charleston probably in October, but I will 
just be a retired Coast Guardsman at the time, her husband 
attending with her.
    Mr. Palazzo. Yeah. Well, it is you know, south Mississippi 
and Huntington Ingalls, we appreciate your trips and visits to 
the shipyard down there, and it is going to be a fantastic 
ship, and she should be very proud. It is a state-of-the-art 
craft.
    One of the things you and I have discussed in the past 
concern the shipbuilding needs of the Coast Guard. We have 
spoken at length about the NSC and the future of that program, 
but also about the balancing act that you are required to do 
with other ships as well, such as the OPC, the icebreaker.
    Do you feel like the current budget, you touched on this, 
is on a better track for meeting your needs and the needs of 
the Coast Guard since we have last spoken?
    Admiral Papp. Well, sir, I think I have said this before as 
well, any service chief--no service chief will ever come up 
here and say, I have got all the money I want, and I don't have 
all the money I would like. There are many things that I would 
like to do for my service, but I--as a taxpayer and as a 
steward of the taxpayers' money, at a certain point in time in 
the negotiation process--and I do believe that each year I have 
gotten a fair hearing from my secretaries and OMB and the 
President.
    At a certain point, I am told what my top line is and then 
I have to juggle and balance and make some compromises, yes, 
from time to time to make sure that we are taking care of 
current-day operations but also planning for the future so that 
those future Coast Guardsmen will have the right tools to work 
with 10, 20, 30, 40 years from now.
    So it has been a balancing act, but we did not think that 
we were going to get 8 National Security Cutters, and we are on 
the verge of getting that right now, and we are very close to 
doing a down select for three candidates to design the Offshore 
Patrol Cutter, and I am very optimistic about that program. 
Then we will have to figure out, or my relief will have to 
figure out how we fit those things in the budget in subsequent 
years.
    Mr. Palazzo. Do you feel like you have the flexibility to 
basically meet the needs of your shipbuilding plan?
    Admiral Papp. I----
    Mr. Palazzo. The right mix of ships?
    Admiral Papp. I think so at this point. The 
administration's been giving me enough to keep our programs 
going. The Congress has at certain points plussed that up a 
little bit to help us, for instance, the long lead money that 
was put in the 2014 budget to--for NSC No. 8, so the process 
has been working and we have had enough flexibility to keep our 
programs going on the time line that we predicted.
    Mr. Palazzo. Is there anything that the House can do to 
ensure that the men and women in the U.S. Coast Guard have the 
tools and equipment that they need so they can do their jobs, 
do it safely, and come back home to their families?
    Admiral Papp. Well, I would say that the men and women of 
the Congress should scrutinize every appropriations bill that 
comes up here, and you have to make balanced decisions on where 
the priorities are, listen to people like me who are trying to 
advocate to make sure that people have the right tools, and 
then make decisions with good counsel.
    Mr. Palazzo. Well, Admiral, I appreciate that.
    I would just like to add a few comments. I mean, it seems 
like we are continuously fighting over shrinking discretionary 
funds, you know, the Coast Guard budget, DOD, NASA, pretty much 
every discretionary agency that falls under that, we continue 
to fight over it. We understand that, you know, we need this 
equipment, we need these tools, we need to be able to protect 
the homeland, but we also need to be able to protect America's 
interests at home and abroad.
    I think, you know, it is unfair to all Americans that we 
need to get our financial affairs in order, and we have to do 
that by addressing the No. 1 driver of our deficits and our 
debt, and that is out-of-control mandatory spending, so that we 
can continue to fund the U.S. Coast Guard, because not only do 
the men and women in the Coast Guard deserve it, but Americans 
expect it.
    So sir, I know you are looking forward to your retirement. 
Enjoy it. Thank you for, you know, not only what your wife's 
doing sponsoring the NSC Hamilton, but good luck in your next 
endeavors. Thank you.
    Admiral Papp. Well, thank you, sir.
    I wouldn't want to leave here with you thinking that I 
don't appreciate and comprehend the challenges that we find in 
the budget. As I said earlier, when I am given a top line, that 
is when I make the tough decisions on what we are going to 
continue, what we can do, and how we balance current operations 
versus the future, but along the way, it is not my job to 
decide what that top line is. My job is to identify the 
resources we are going to need, what are our requirements.
    In my best judgment, based on 40 years, 14 years at sea and 
doing Coast Guard operations across the full spectrum of what 
we do, what do we need to do those tools? I don't think there 
is anybody better-prepared at this juncture than I am, after 4 
decades, to say these are the requirements that we have. You 
may not be able to fund them all, but it is my job to be honest 
and forthright and candid in terms of what we need, and I have 
tried to do that every time I have come up here.
    Mr. Palazzo. We appreciate that candor. Thank you.
    I yield back.
    Admiral Papp. Yes, sir.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from Texas, Mr. 
O'Rourke.
    Mr. O'Rourke. Thank you.
    Mr. Commandant, I would also like to join my colleagues in 
thanking you for your service and through you thanking the men 
and women who serve our country in the Coast Guard.
    Admiral Papp. Thank you, sir.
    Mr. O'Rourke. I want to follow up on some of the comments 
you just made in some of the questioning that we have had from 
the committee today about budgets and some of the tough choices 
that you have to make in working with that top line number that 
you keep referring to.
    I was reading some comments of yours from a speech that you 
gave in 2012, and one of the things that you said is that we 
have to have the courage to be able to say no sometimes, and 
you talked about decreasing resources, and the Ranking Member 
talked about fewer than--or we had less than 6,000 hours from 
previous year this past year in terms of time that we could 
spend on missions with the Coast Guard, and you have additional 
responsibilities in the Arctic as more water is freed up and 
there is more energy exploration there. In your comments in 
2012 you were talking about additional responsibilities when it 
comes to cyber threats and standing up a cyber command within 
the Coast Guard and adding to what the Department of Defense is 
already doing.
    The way that it was summarized in an article I read, the 
headline said, ``Shrinking Coast Guard Must Cut Drug War to 
Boost Cyber and Arctic.'' I wondered--and I know that the 
nature of headlines is to sensationalize what people say and to 
draw a reader in, but I wondered if you could reflect a little 
bit on some of those tough choices, the additional 
responsibilities and where we might have to say no through the 
Coast Guard and as a country when it comes to the various 
threats that we face at our maritime ports and beyond the 
ports.
    Admiral Papp. Sure.
    Going back to what you said originally, one of our greatest 
strengths in our service culturally is a can-do attitude. One 
of our greatest weaknesses is a can-do attitude as well, 
because oftentimes we take on more than we can with the 
resources that we have, and we get examples like that all the 
time.
    For instance, back about a year or more when we only had 
one icebreaker, the Healy, in service, and it was active in the 
Arctic, we got a request because a leased, I think it was a 
leased Finnish or Russian icebreaker that the National Science 
Foundation had contracted for was not going to be able to go 
down and break out McMurdo, and they put in a request to take 
our one icebreaker. It would have been tempting to charge off 
and put our people through more work and go down there, but I 
said no, because we only have one icebreaker, the Arctic is our 
territory, our exclusive economic zone, and I can't take the 
only icebreaker that the United States had in service and send 
it down there. It was a tough decision.
    We don't have as many large cutters now as we had in the 
past. We used to be able to participate in Navy exercises 
throughout the Pacific, and frankly, it is time well spent for 
our country, because there are countries that want to have 
coast guards and they enjoy seeing our ships and our sailors, 
we do cooperative training, but the Arctic has opened up now 
and we need to send one of our cutters up there, so we had to 
pull out of Navy exercises, something we hadn't done in 
decades, in order to provide the ship days to go up and take 
care of our responsibilities in the Arctic.
    So those are the types of things I am talking about. Rather 
than chase the--I call it, chasing shiny balls, you know, 
things that are really attractive and we want to race off and 
do them, we have to stick to the work that we are required to 
do in a decreased resource environment.
    Counter-drug, there is no way we would voluntarily cut back 
on counter-drug, because it is such a successful program for 
us. The only reason we cut back this past year, and we had 
about a 30 percent reduction this year in drugs disrupted, 
because of sequestration. When you get almost a $200 million 
bill, which was what sequestration was for the Coast Guard, the 
only place you can take it out of is discretionary spending, 
and discretionary spending generally equates to operational 
hours, whether it is flight hours, boat hours, or ship days, 
and the only place that we could squeeze it a little bit was in 
drug interdiction and migrant interdiction.
    Mr. O'Rourke. In terms of measuring the outcomes of those 
reduced resources and reduced interdictions, are you able to 
track what that means in terms of availability of those drugs 
on the streets in the United States or the number of, and I 
don't know how you'd measure this, but the migrants who are 
able to get through because of lack of resources? In other 
words, do we know the outcome, the effect of this?
    Admiral Papp. Yes, sir. For drugs, it is a little 
complicated, but I can understand it, so it is not that 
complicated. One of my jobs is I serve as the chairman of the 
interdiction committee that works for the Office of National 
Drug Control Policy. We coordinate between DEA, Justice, 
Department of Defense, and others, we coordinate activities and 
share information. Part of it is a consolidated drug database.
    We have a good idea on how much cocaine is produced in 
South America, we also have a good idea on how much is consumed 
on the streets of America, and we can judge that generally by 
how the price is going up, price is going down, and there are 
things that provide analysis to tell that.
    There are about 800 metric tons produced in South America, 
there are about 400 tons that are consumed in the United 
States. On an average year, the Coast Guard interdicts, 
disrupts about 120 metric tons in the transit zone between 
South America into Central America. That is where you pick up 
the big loads.
    The entire rest of the United States Federal, State, and 
local law enforcement agencies throughout millions of people 
interdict, seize about 40 metric tons countrywide, because they 
are in smaller loads when they come across, more difficult to 
find.
    So that is why I feel so strongly about keeping our ships 
forward-deployed in the transit zones, so that we can interdict 
4, 5, 6 metric tons at a time to keep them off the streets as 
they get here.
    Plus, it is not just our streets. It is a destabilizing 
effect in Mexico and Central America that the transit of the 
drugs creates as well. Money and weapons going south to 
destabilize drugs coming north, it is a cycle that we have to 
break.
    Mr. O'Rourke. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank you, Admiral.
    Those numbers of how much is being consumed in the streets 
of America are really distressing. I have never heard that 
number before. That is mind-boggling.
    At this time the Chairwoman now recognizes the gentlelady 
from Hawaii, Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Madam Chairwoman.
    Sir, like my colleagues, I just want to say thank you so 
much for your commitment to service, your dedication to duty, 
and your leadership for Coasties everywhere.
    Admiral Papp. Thank you.
    Ms. Gabbard. I had a chance to serve on my second 
deployment with some security forces in the Coast Guard who 
were based at the Kuwait naval base, and prior to that 
deployment, I had no idea that there were Coasties serving in 
the Middle East providing support to those missions, so I 
learned a lot from that perspective, as I have now in my 
interactions with the District 14 folks covering the Pacific, 
and just really appreciate all that the Coast Guard does.
    In your written testimony, you specifically mentioned the 
renewed National focus on the Asia-Pacific region. Most people 
don't realize how large that space really is and the Coast 
Guard's central role in providing security there. Fourteenth 
District, as you know, is the Coast Guard's largest area of 
responsibility, covering 12.2 million square miles of land and 
sea. I am wondering if you can speak to what you see coming 
around the corner within this area, within the region, the 
Asia-Pacific region, from a threat perspective, what should we 
be anticipating from a homeland security viewpoint, and are we 
prepared from a resource perspective?
    Admiral Papp. I think in the Pacific-Asia region, the three 
things I see are drugs, migrants, and fisheries. Particularly 
our trust territories, let's go with fisheries, that 4.5 
million-square-mile exclusive economic zone, a great deal of 
that is in the Pacific surrounding the Hawaiian islands, the 
trust territories, the islands, Guam, and others, and we do not 
have enough resources to keep a persistent presence to protect 
our fisheries. There are many incursions that are going on, and 
there are also partner countries out there that don't have much 
capacity as well.
    We try to mitigate that. Actually the United States Navy 
has been very helpful. We have been putting law enforcement 
detachments on Navy ships that are transiting the area. Admiral 
Locklear has been very good in terms--and he has got a great 
relationship with our Coast Guard, in terms of putting a few 
extra days in for his Navy ships so that we can make passes 
through some of the areas out there where we want to protect 
our fishing and the migratory stocks that are out there.
    So that has been a good program and helps us out, but I 
would clearly like to have more Coast Guard cutters out there 
and the time to be able to spend in those areas.
    Those 800 metric tons of drugs, there is a big market in 
Australia right now, and I wouldn't be surprised if we start 
seeing--we have seen vessels being interdicted near Australia 
with multi-ton loads of cocaine.
    Hawaii is not inconceivable. There could be drugs going 
into Hawaii as well. It is sort of a transit now back out 
across the Pacific that we are concerned about.
    We have the precursors for methamphetamines that are 
produced in Asia that come across the Pacific generally going 
to south--to Central America for processing, but ultimately 
come across our borders, so we are working with partner nations 
to try and identify those cargoes before they get to our 
hemisphere.
    Migrants: We are always concerned. Right now Australia, in 
fact, I consulted with Australia because they have such a huge 
illegal migration problem there, and they are looking at some 
of the practices that the United States Coast Guard uses in the 
Caribbean. It is a little bit different of a challenge for 
them. But we also look, there are oftentimes migrant vessels 
that will come across the North Pacific towards Canada or the 
West Coast of the United States that we have to be concerned 
about as well.
    Ms. Gabbard. I have a brother who lives in Australia and 
was there towards the end of last year and had a chance to meet 
with the Australian Navy Fleet Commander, and he spoke very 
highly of the partnership and the lessons learned that they are 
gaining from our Coast Guard here.
    You mentioned that you don't have enough cutters for 
District 14. I understand that District 14 is expected to get 
two National Security Cutters that will replace some of the 
aging cutters that have basically been extended beyond their 
designed service life. You know, I saw one of the cutters that 
was in dry dock at Pearl Harbor.
    It is great that we have that asset there. But clearly when 
you get to that point the cost of continuing to refurbish these 
cutters beyond what they were designed for really doesn't make 
sense when it extends beyond the cost of bringing in a new 
cutter. I'm wondering when you expect these cutters to be put 
into service in Hawaii.
    Admiral Papp. The two National Security Cutters, we made 
that porting plan I think it was 2 years ago. I will get you 
the exact numbers for the record, but I think it is National 
Security Cutters Nos. 6 and 7 are going to Honolulu.
    Given the production schedule, I would estimate that is 
probably going to be at least 4 or 5 years from now because No. 
5 is under construction. I think they are starting on No. 6 and 
so it will be a couple years from now and we will keep a 
presence there, of course, until the new ships arrive if we 
have got enough room in the budget.
    Ms. Gabbard. Thank you very much, sir. I appreciate it.
    Mrs. Miller. I thank the gentlelady very much.
    I thank all the Members of the committee. If the committee 
Members, if anybody has additional questions, we will ask that 
the Commandant would respond to those in writing, if they ask. 
Pursuant to Committee Rule 7(e), the hearing record will be 
held--yes, Ranking Member.
    Ms. Jackson Lee. First of all, let me indicate that I have 
a Cabinet officer that I had to speak to in just a moment.
    But I want to thank the Commandant and I wanted to make 
sure that in his response would he share with me my answer to 
the questions on the TWIC card.
    Admiral Papp. Yes, ma'am.
    Ms. Jackson Lee. I appreciate very much.
    I know there were a lot of questions, so I am very 
interested in that and very interested in your counsel on how 
we can make that more efficient and more effective.
    I think in particular, if I may, Madam Chairwoman, just 
read this question too: Should this Government-centric premise 
to the TWIC card be revisited? That was based upon using this 
approach to port security credentialing in which DHS is 
responsible for enrollment, card issuance, and security vetting 
for TWIC; is that the best option?
    Then, what needs to be done to ensure the TWIC program 
delivers the security benefits Congress envisioned while not 
unduly burdening workers or disrupting our ports? Also you 
might comment on the Coast Guard role.
    I thank you for that.
    Admiral Papp. Yes, ma'am.
    Ms. Jackson Lee. Thank you very much. Thank you, Madam 
Chairwoman.
    Mrs. Miller. Certainly. I thank the gentlelady for those 
questions.
    Again I am sure the Commandant will respond to those to the 
committee and will get the answers to you.
    Pursuant to the Committee Rule 7(e), the hearing record 
will be held open for 10 days.
    Again, Admiral, we just want to thank you so sincerely for 
your many, many years of service to the Nation and look forward 
to working with you in the future as well.
    Good luck to your wife. I didn't realize she was going to 
be the sponsor of the Hamilton. That is terrific. We appreciate 
it. You have been a great advocate for the Coast Guard, and I 
think as you can see from this committee Coast Guard had some 
very, very deep wells of goodwill toward the Coast Guard and 
the men and women in the service and what they do for our 
Nation.
    We thank you very much.
    Admiral Papp. Thank you, ma'am. It has been an honor.
    Mrs. Miller. With that, without objection, the committee 
stands adjourned.
    [Whereupon, at 11:08 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

     Questions From Honorable Steven M. Palazzo for Robert J. Papp
    Question 1. What is the strategy for modernizing and recapitalizing 
the USCG air fleet while minimizing the impact on the USCG budget, and 
how does the Avionics 1 Upgrade (A1U) upgrade program fit into that 
strategy?
    Answer. Response was not received at the time of publication.
    Question 2. How does the USCG plan to cover a multi-year 
operational gap from the time the HC-130Hs are transferred to the USFS 
to the time the first fully-missionized C27J reaches initial 
operational capability?
    Answer. Response was not received at the time of publication.
    Question 3. When will the USCG implement the next phase of A1U 
upgrades to the HC-130H airframes?
    Answer. Response was not received at the time of publication.
    Question 4. What is the acquisition plan for the HC-130J?
    Answer. Response was not received at the time of publication.
    Question 5. How would any future acquisition of any additional HC-
130 J models impact the acquisition of additional National Security 
Cutters in the fleet?
    Answer. Response was not received at the time of publication.
    Question 6. In 2013, the Commandant testified that the Avionics 1 
Upgrade (A1U) installations on HC-130H aircraft enhanced the capability 
of the HC-130H fleet by replacing aging/obsolete equipment, and 
updating avionics to comply with Communications Navigation 
Surveillance/Air Traffic Management (CNS/ATM).\1\ Considering the 
length of time (an estimated 4 years) for the C27J to be fully mission-
ready, is the A1U program still front-and-center of your near-term air 
asset recapitalization plan?
---------------------------------------------------------------------------
    \1\ Written testimony of U.S. Coast Guard Commandant Admiral Robert 
Papp, Jr. for a House Committee on Transportation and Infrastructure, 
Subcommittee on Coast Guard and Maritime Transportation hearing titled 
``The President's Fiscal Year 2014 Budget Request for Coast Guard and 
Maritime Transportation Programs'' Release Date: April 16, 2013. 2167 
Rayburn House Office Building.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 7. Is acquiring HC-130Js in the next 5 to 10 years 
economically feasible in light of the demands on the USCG budget for 
surface assets such as the National Security Cutter, Fast Response 
Cutter, Offshore Patrol Cutter, and Polar Icebreaker?
    Answer. Response was not received at the time of publication.
    Question 8. Further considering that the A1U program is a key part 
of the USCGs plan to ``Build Essential Coast Guard Capability for the 
Nation'', does the USCG plan to now, or in the near future cancel or 
reduce the A1U program?\2\
---------------------------------------------------------------------------
    \2\ U.S. Coast Guard Fact Sheet--Fiscal Year 2014 President's 
Budget. April 10, 2013.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 9. How can Mississippi support the mission of the USCG air 
fleet?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
